HHS/OIG-Audit--"Medicaid Drug Rebates: Inaccurate Reporting of Medicaid Drug Data By Pharmacists, (A-06-91-00056)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Drug Rebates: Inaccurate Reporting of Medicaid Drug Data By Pharmacists," (A-06-91-00056)
June 5, 1992
Complete
Text of Report is available in PDF format (310 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report identifies the results of our review of the reporting of Medicaid
drug data by pharmacists to the State Medicaid agencies (States). We sent a questionnaire
to the 50 States and the District of Columbia, and 46 states responded. Our review
disclosed that 22 of the 46 States, or about 48 percent, indicated problems in
reporting accurate drug utilization data for use by the manufacturers in determining
rebate payments.